     Department of Homeland Security





      FEMA Public Assistance Grant Funds Awarded to
     Catholic Charities Housing Association of Biloxi, Inc.
                        Biloxi, Mississippi




DA-12-19                                              May 2012

                  a;~~,.g .~6$
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                     Washington, DC 20528 ! www.oig.dhs.gov




                                             MAY 3 0 2012
MEMORANDUM FOR:                     Major P. (Phil) May
                                     gional Administrator, Region IV
                                         era   IEV'".JrtYMa
                                                         Lement Agency
FROM:                    ------.2:::::-;::D~.~iC ~d
                                    Assistant Inspector eneral
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Public Assistance Grant Funds Awarded to
                                    Catholic Charities Housing Association of Biloxi, Inc.
                                    Biloxi, Mississippi
                                    FEMA Disaster Number 1604-DR-MS
                                    Audit Report Number DA-12-19

We audited Public Assistance {PAl grant funds awarded to Catholic Charities Housing
Association of Biloxi, Inc. (Catholic Charities Housing) in Biloxi, MS, (FIPS Code 000-
UR4DC-OO). Our audit objective was to determine whether Catholic Charities Housing
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

As of November 2,2011, Catholic Charities Housing received a PA award of $30.7 million
from the Mississippi Emergency Management Agency (State), a FEMA grantee, for
damages resulting from Hurricane Katrina, which occurred in August 2005. The award
provided 100 percent FEMA funding for emergency protective measures and repair and
replacement of buildings, equipment, and recreational facilities damaged as a result of
                                                                1
the disaster. The award included 13 large and 6 small projects.

We audited four large projects with awards totaling $29.8 million. The audit covered
the period August 29, 2005, to November 2, 2011, during which Catholic Charities
Housing submitted claims for $14.7 million for projects included in our audit scope (see
Exhibit, Schedule of Projects Audited). At the time of our audit, Catholic Charities
Housing had not completed work on all projects, and therefore, had not submitted a
final claim to the State for project expenditures.




1 Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   We conducted this performance audit between November 2011 and April 2012
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objective. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective. We conducted this audit by applying the statutes,
   regulations, and FEMA policies and guidelines in effect at the time of the disaster.

   We judgmentally selected project costs (generally based on dollar value); interviewed
   Catholic Charities Housing, State, and FEMA personnel; reviewed Catholic Charities
   Housing’s procurement policies and procedures; reviewed applicable Federal
   regulations and FEMA guidelines; and performed other procedures considered
   necessary under the circumstances to accomplish our audit objective. We did not assess
   the adequacy of Catholic Charities Housing’s internal controls applicable to its grant
   activities because it was not necessary to accomplish our audit objective. However, we
   gained an understanding of Catholic Charities Housing’s method of accounting for
   disaster-related costs and its policies and procedures for administering activities
   provided for under the FEMA award.


                                      RESULTS OF AUDIT

   Catholic Charities Housing accounted for project expenditures according to Federal
   regulations and FEMA guidelines. However, we identified $1,177,564 of project funding
   that should be deobligated and put to better use, which consists of $952,515 for project
   work not implemented and $225,049 of ineligible funding resulting from a miscalculation
   of estimated project management costs. In addition, we question $65,528 of project
   costs claimed for unauthorized work.

   Finding A: Authorized Scopes of Work Not Implemented

   Catholic Charities Housing did not implement authorized scopes of work totaling
   $952,515 under Projects 9569 and 9595. Federal regulation 2 CFR 215.62(a)(2) states
   that if a recipient materially fails to comply with the terms and conditions of an award,
   the Federal awarding agency may disallow all or part of the costs of the activity or action
   not in compliance. Further, 44 CFR 206.205(b) states that eligible work under large
   projects must be completed to be eligible for payment.




www.oig.dhs.gov                                2                                         DA-12-19
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


       1.	 Hazard Mitigation Funding. Catholic Charities Housing did not complete
           $118,273 of hazard mitigation measures funded under Project 9569 (Notre
           Dame De La Mer apartments). FEMA awarded Catholic Charities Housing
           $134,581 of funding for temporary aluminum panels to protect the building from
           floodwaters and for elevated platforms to protect a generator and air
           conditioner units. However, Catholic Charities Housing spent only $16,308 of the
           funding to construct the elevated platform for the generator; no other work was
           performed. Therefore, the remaining $118,273 ($134,581 less $16,308) of
           funding should be deobligated and put to better use because the authorized
           work was not completed.

       2.	 Building Demolition Funding. In November 2006, FEMA awarded Catholic
           Charities Housing $834,242 under Project 9595 for the demolition of the Santa
           Maria De La Mer apartments destroyed at the old location. As of March 2012,
           Catholic Charities Housing has not taken any action to demolish the apartments.
           During our fieldwork, Catholic Charities Housing indicated that a mortgage held
           by the U.S. Department of Housing and Urban Development was the reason for
           the delay in demolishing the damaged property. However, we noted that the
           loan has been paid off and would no longer be a factor. In addition, the
           demolition of the building may not be in Catholic Charities Housing’s best
           financial interest. An independent appraisal performed in August 2009
           concluded that the existing structure, including the land, had a value of
           $4.1 million, whereas the land without the structure was valued at about
           $1.6 million. Because more than six years have passed since Hurricane Katrina,
           FEMA should establish a deadline to accomplish the demolition work, and if the
           deadline is not met, the funding of $834,242 should be deobligated and put to
           better use.

   Finding B: Ineligible Improved Project Funding

   Catholic Charities Housing received $225,049 of ineligible funding on Project 9595 due
   to calculation errors in the FEMA Cost Estimating Format (CEF).2 Catholic Charities
   Housing applied for an improved project3 for the Santa Maria De La Mer Apartments at


   2
     FEMA Standard Operating Procedure 9570.8 provides guidance on the CEF process and refers to an
   Excel-based template used to estimate costs for large projects. Once the eligible scope of work and base
   costs are determined, add-on factors such as overhead, bonds, insurance, cost escalation, project
   management, and profit are then determined and added to the base costs to arrive at total estimated
   eligible project costs.
   3
     An improved project refers to restoration work that involves improvements to a damaged facility while
   maintaining the same function of the predisaster facility and at least the equivalent capacity. Federal


www.oig.dhs.gov                                        3	                                             DA-12-19
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   a new location from the destroyed apartments. FEMA approved the request and
   obligated $24,959,265 of project funding using the CEF, which is FEMA’s standard
   procedure for estimating eligible funding under large projects. We reviewed FEMA’s
   project files on the Santa Maria De La Mer construction project, which supported a 3
   percent rate to estimate project management costs. However, the CEF Excel-based
   spreadsheet calculated estimated program management costs at a 4 percent rate,
   thereby overstating estimated costs by $225,049. Therefore, $225,049 of ineligible
   funding should be deobligated and put to better use.

   Since the CEF Excel-based template is used to calculate estimated obligated amounts for
   alternate or improved projects, the calculation errors within the template could be a
   systemic problem, which would overstate the obligated amounts for projects using CEF
   calculations. A prior audit 4 of CEF calculations on alternate projects revealed similar
   errors in the Excel-based template, which overstated obligated amounts. Therefore, we
   recommend that FEMA review CEF calculations on other Disaster 1604 alternate and
   improved projects for accuracy and adjust the obligated amounts accordingly.

   Finding C: Ineligible Costs

   Catholic Charities Housing claimed $65,528 under Project 9569 (Notre Dame De La Mer
   apartments) to upgrade a security system ($29,907) and repair and replace a stairwell
   ($35,621) that were outside the project’s authorized scope of work. According to
   Catholic Housing Charities, they thought the two items were included in the project’s
   scope. Cost Principles for Nonprofit Organizations (2 CFR 230, Appendix A, A.4.a) states
   that a cost is allocable to a Federal award if it is incurred specifically for the award.

   At the exit conference, Catholic Charities Housing officials said that the security system
   upgrade was required by city officials to meet code requirements and, therefore, the
   costs should be allowed. However, the upgrade is not specifically included in the
   project’s scope of work. Therefore, we question the $65,528.




   regulation 44 CFR 206.203(d)(1) limits Federal funding for improved projects to the Federal share of the

   approved estimates of eligible costs.

   4
     DHS OIG report DA-11-12, April 11, 2011, FIPS code 000-U6SCL-00.



www.oig.dhs.gov                                        4                                                DA-12-19
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                     RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Deobligate and put to better use $118,273 of funding
           under Project 9569 for work not implemented concerning hazard mitigation
           (finding A).

           Recommendation#2: Establish a deadline for completion of demolition work on
           Project 9595 and if not met, deobligate $834,242 and put those funds to better
           use (finding A).

           Recommendation #3: Review the Cost Estimating Format calculations on other
           Disaster 1604 alternate and improved projects for accuracy and adjust obligated
           amounts accordingly (finding B).

           Recommendation #4: Deobligate and put to better use $225,049 of ineligible
           funding under Project 9595 (finding B).

           Recommendation #5: Disallow $65,528 of ineligible costs claimed for
           unauthorized work under Project 9569 (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with Catholic Charities Housing, State, and FEMA
   officials during our audit. We also provided a draft report in advance to these officials
   and discussed it at the exit conference held on April 11, 2012. Catholic Charities
   Housing officials agreed with findings A and B, and disagreed in part with finding C.
   Their comments, where appropriate, are included in the body of the report. FEMA and
   State officials generally agreed with our findings and recommendations.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.




www.oig.dhs.gov                                5                                        DA-12-19
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report were David Kimble, Eastern Region Audit Director;
   Larry Arnold, Audit Manager; Gary Rosetti, Auditor-in-charge; Lynn Smith, Auditor; and
   Alicia Lewis, Auditor.

   Please call me with any questions, or contact David Kimble, Eastern Region Audit
   Director, at (404) 832-6702.

   cc:     	Administrator, FEMA
           Audit Liaison, FEMA Mississippi Recovery Office
           Audit Liaison, FEMA Region IV
           Audit Liaison, FEMA (Job Code G-11-071)
           Audit Liaison, DHS




www.oig.dhs.gov                               6	                                      DA-12-19
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


    EXHIBIT

                                    Schedule of Projects Audited

                               August 29, 2005, to November 2, 2011

                         Catholic Charities Housing Association of Biloxi, Inc.

                                 FEMA Disaster Number 1604-DR-MS



Project                                          Amount        Amount        Amount      Funds Put to
Number                 Project Scope             Awarded       Claimed      Questioned    Better Use     Finding
 9569     Notre Dame De La Mer Apartments
          for the Elderly                         $544,851      $400,075       $65,528      $118,273      A, C
 9595     Santa Maria De La Mer Apartments
          for the Elderly                        23,741,768    10,487,464           0       1,059,291     A, B
 11231    Santa Maria De La Mer Senior Living
          Community Land Acquisition              1,309,768     1,309,768           0               0
 11232    Santa Maria De La Mer Senior Living
          Community Sitework                      4,165,358     2,456,293            0              0
 Totals                                         $29,761,745   $14,653,600      $65,528     $1,177,564




www.oig.dhs.gov                                        7                                                DA-12-19
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
